                    U.S. Department of Agriculture
                       Office of Inspector General




USDA Payments for 2005 Citrus Canker
           Tree Losses




                              Audit Report 50099-46-At
                                           March 2011
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          March 23, 2011

AUDIT
NUMBER:        50099-46-At

TO:            Cindy J. Smith
               Administrator
               Animal and Plant Health Inspection Service

               William J. Murphy
               Administrator
               Risk Management Agency

ATTN:          Joanne L. Munno
               Deputy Administrator for Marketing
                 Regulatory Program
               Animal and Plant Health Inspection Service

               Michael Hand
               Deputy Administrator
                for Compliance
               Risk Management Agency

FROM:          Gil H. Harden /S/
               Assistant Inspector General
                for Audit

SUBJECT:       USDA Payments for 2005 Citrus Canker Tree Losses


This report presents the results of our audit of the Department of Agriculture’s payments for
2005 citrus canker tree losses. Your written response to the official draft report, dated
March 7, 2011, is attached, with excerpts and the Office of Inspector General’s (OIG) position
incorporated into the Finding and Recommendation sections of the report, where applicable.

We agree with management decision on Recommendations 1, 3, and 4 of the report. However,
we are unable to accept management decision on Recommendation 2. Documentation and/or
actions needed to reach management decision for this recommendation is described in the OIG
Position section of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
Cindy J. Smith and William J. Murphy                                                          2


recommendation for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background & Objectives .......................................................................................4
   Background ...........................................................................................................4
   Objectives ..............................................................................................................5
Section 1: IRS Reporting of Citrus Canker Tree Replacement Payments .......6
   Finding 1: APHIS Did Not Report Citrus Canker Tree Replacement
   Payments to IRS ...................................................................................................6
         Recommendation 1 ........................................................................................8
Section 2: Controls Over Citrus Canker Lost Production Program .................9
   Finding 2: USDA Agencies Did Not Coordinate to Ensure Correct
   Payments for Citrus Canker-Related Losses in CY 2005.................................9
         Recommendation 2 ......................................................................................11
         Recommendation 3 ......................................................................................11
         Recommendation 4 ......................................................................................12
Scope and Methodology.........................................................................................13
Abbreviations .........................................................................................................15
Exhibit A: Summary of Monetary Results ..........................................................16
Exhibit B: APHIS Citrus Canker Lost Production Payment Errors (by
Grower) ...................................................................................................................17
Agency’s Response .................................................................................................19
USDA Payments for 2005 Citrus Canker Losses

Executive Summary
In 1995, citrus canker—a disease that affects citrus trees and fresh citrus fruit—was identified in
south Florida, and began affecting both residential properties and commercial groves. The
Federal Government, along with the State of Florida Department of Agriculture and Consumer
Services, implemented measures to eradicate the disease by removing infected trees and nearby
trees that may have been exposed.1 These eradication measures affected many Floridians who
depend on citrus for their livelihood. In response, the Department of Agriculture (USDA)
implemented three different programs to assist affected growers. During 2001, the Animal and
Plant Health Inspection Service (APHIS) implemented the Citrus Canker Lost Production
Program and Citrus Canker Tree Replacement Program to compensate eligible Florida
commercial citrus growers for lost production and tree losses. Meanwhile the Risk Management
Agency (RMA) modified one of its insurance products—the Florida Fruit Tree Pilot Crop
Insurance Program—so that growers could be indemnified for citrus canker tree losses.
Together, these three programs provided Florida citrus growers with significant benefits. From
November 21, 2004, to November 20, 2005,2 APHIS, through its two programs, made
$474 million in payments to growers, and RMA through its approved insurance providers paid
growers $100.8 million for citrus canker tree losses.

The Office of Inspector General (OIG) initiated this audit to evaluate (1) the adequacy of
coordination and collaboration between APHIS and RMA with regard to citrus canker-related
payments, and (2) the adequacy of the agencies’ management controls to ensure that payments to
citrus growers for comparable losses from citrus canker were accurately calculated to avoid
duplicate and overlapping payments. As our fieldwork proceeded, we also became aware of
potential problems concerning whether APHIS reported its payments to the Internal Revenue
Service (IRS), so we expanded our scope to evaluate this concern. In order to accomplish our
objectives, we selected and reviewed 54 producers participating in APHIS programs who had
also received at least $100,000 from RMA’s 2005 Florida Fruit Tree Pilot Crop Insurance
Program and who also participated in RMA’s 2006 Florida Citrus Fruit Crop Insurance
Program.3

We found that APHIS did not report $290.9 million in Citrus Canker Tree Replacement Program
payments to IRS from fiscal years 2001 through 2007.4 APHIS officials believed that citrus
canker tree replacement payments should be handled similarly to payments that the agency had
made to hog producers in FY 2000. In that year, APHIS and IRS had determined that

1
  Title 7 Code of Federal Regulations (CFR) 301.75, dated January 1, 2004, and Florida Statutes 581.184.
2
  The audit work was based on the RMA 2005 crop year for Florida Fruit Tree Pilot Crop Insurance Program which
began November 21, 2004, and ended November 20, 2005.
3
  The Florida Citrus Fruit Crop Insurance Program did not make indemnity payments for lost production as a result
of citrus canker. However, we were performing concurrently a review of this program (Audit Report 05099-29-At)
and intended to cross-check grower-provided information across the different programs.
4
  APHIS properly reported to IRS Citrus Canker Lost Production Program payments, totaling $319.7 million, made
to growers during the same time period.


Audit Report 50099-46-At                                                                                    1
compensation for the hogs should not be reported. For citrus canker tree replacement payments,
however, OIG consulted with IRS and determined that the trees, unlike hogs, are capital assets. 5
Therefore, we believe any compensation for the trees should have been reported for tax purposes.
Given their belief, APHIS officials recorded citrus canker tree replacement payments for
USDA’s accounting records using a code that flagged these payments as non-reportable to IRS.
As a result, the Government has no assurance that growers properly reported to IRS tree
replacement payments which may be subject to taxes.

We also found that APHIS did not coordinate with RMA to determine the amount of indemnity
payments growers already received before APHIS calculated its payments. Federal regulations
required APHIS to reduce its citrus canker lost production payments by the amount of any RMA
tree payments growers received.6 APHIS officials stated that they did not coordinate with RMA
because they did not believe growers would knowingly misrepresent the amount of the payment
received from RMA. We found, however, that growers did not always provide correct
information when they applied for the APHIS Citrus Canker Lost Production Program, largely
due to their misunderstanding of how their RMA indemnities were paid. Growers often reported
the amount on their checks, even though the amount RMA and the approved insurance providers
indemnified them was more complicated.7 Due to the agency’s reliance on grower-provided
information that was sometimes incorrect, APHIS overpaid 15 of 54 citrus growers $633,717 and
underpaid 6 growers $486,959—for a total of $1.1 million in erroneous payments.

Recommendation Summary
We are recommending that APHIS and USDA work with IRS to determine what actions should
be taken to resolve Citrus Canker Tree Replacement Program payments that were not reported to
IRS. We are also recommending that APHIS correct the erroneous payments of $1.1 million
made to 21 citrus growers who received compensation under APHIS’ program.




5
  According to IRS Publication 544, Sales and Other Dispositions of Assets, almost everything a person owns and
uses for personal purposes or investment is a capital asset. IRS Publication 225, Farmer’s Tax Guide, defines a
noncapital asset as property such as inventory and depreciable property used in a trade or business and property held
for sale to customers, such as livestock, poultry, livestock products, and crops. According to IRS guide, Farmers
Audit Techniques Guide – Chapter Four – Expenses, Capital vs. Reoccurring Costs, dated July 2006, crops subject
to Internal Revenue Code (IRC) section 263A include crops, such as citrus crops, which have a productive period in
excess of 2 years. IRC section 263A specifies uniform capitalization rules. Lastly, under the Florida Citrus Fruit
Crop Provisions, RMA does not insure any citrus fruit produced by trees that have not reached the fifth growing
season after being set out.
6
  Title 7 CFR 301.75-16(b)(2)(i), dated January 1, 2004, states, “In cases where the owner of a commercial citrus
grove had obtained [Asiatic citrus canker] coverage for trees in his or her grove and received crop insurance
payments following the destruction of the insured trees, the [Citrus Canker Lost Production Program payment] will
be reduced by the total amount of the crop insurance payments received by the commercial citrus grove’s owner for
the insured trees.”
7
  Under the Federal crop insurance program, insured producers are not required to pay upfront the premiums on their
policies. Instead, premiums due to the approved insurance providers are deducted from the producers’ indemnity
payments if they file a loss claim; that is, the actual indemnity payment reflects a deduction taken for the premium
owed by the insured.


Audit Report 50099-46-At                                                                                       2
Agency Response
In its March 7, 2011, written response to the official draft report, APHIS generally expressed
agreement with our findings and recommendations. We have incorporated the APHIS response
in the Findings and Recommendations section of this report, along with our comments in the
applicable OIG Position sections. APHIS’ response to the official draft is included in its entirety
at the end of this report.

OIG Position
We concur with APHIS’ proposed corrective actions and have accepted management decision
for Recommendations 1, 3, and 4. We have provided our comments and what is required to
reach management decision on Recommendation 2 in the applicable OIG Position section.




Audit Report 50099-46-At                                                                      3
Background & Objectives

Background
In 1995, Florida citrus growers began noticing that their trees were suffering from an outbreak of
citrus canker. Citrus canker is a disease affecting citrus trees and fresh fruit, which can cause
defoliation and other serious damage to the leaves and twigs of susceptible trees. It can also
cause lesions on the fruit of infected trees, rendering the fruit unmarketable, and can cause
infected fruit to drop from the trees before reaching maturity. The especially aggressive Asiatic
strain of citrus canker can infect susceptible trees rapidly and lead to extensive economic losses
in commercial citrus-producing areas.

In January 2000, the Florida Department of Agriculture and Consumer Services began removing
all citrus trees—infected or otherwise—within a 1,900-foot radius of a citrus canker-infected
tree, both in residential areas and commercial groves. Florida citrus growers were negatively
affected by the destruction of not only trees that were infected, but also trees that were in close
proximity to the infected trees.

In response to concerns about the economic consequences of attempting to eradicate citrus
canker, Congress provided appropriated funding, and the Secretary provided funding from
Section 32 funds8 and the Commodity Credit Corporation that enabled the Department of
Agriculture (USDA) to compensate Florida growers for their losses. The Animal and Plant
Health Inspection Service (APHIS) administered two such programs: (1) the Citrus Canker Lost
Production Program provided compensation to growers for the recovery of production income
lost as a result of the removal of commercial citrus trees in an attempt to control citrus canker,
and (2) the Citrus Canker Tree Replacement Program provided compensation to growers to
replace citrus trees destroyed because of canker if the trees were removed pursuant to a public
order after September 28, 1995.9 In total, these two programs paid Florida growers $474 million
in benefits for trees that were ordered to be destroyed from November 21, 2004, to
November 20, 2005.

Beginning with the 1996 crop year, the Risk Management Agency (RMA) was also operating a
program—the Florida Fruit Tree Pilot Crop Insurance Program—that indemnified insured
growers for trees that were either damaged or destroyed by cold, wind, or excess moisture.
Beginning in crop year (CY) 2000, RMA modified the pilot program to include infection by or
exposure to Asiatic citrus canker as an insurable cause of loss and expanded the program from
5 counties to 29 counties.10 During CY 2005, RMA and approved insurance providers paid
citrus growers $100.8 million in citrus tree damages caused by Asiatic citrus canker.



8
  Section 32 of the Agriculture Adjustment Act of August 24, 1935, as amended, authorizes the
Secretary of Agriculture to provide assistance to farmers to restore their purchasing power.
9
  Growers whose trees were removed to control citrus canker pursuant to a public order between 1986 and 1990 or
on or after September 28, 1995, may have been eligible to receive payments from both programs.
10
   Beginning with the 2008 crop year, the Florida Fruit Tree Pilot Crop Insurance Program was modified by RMA to
exclude Asiatic citrus canker as an insurable cause of loss.


Audit Report 50099-46-At                                                                                  4
If a citrus grower had received crop insurance payments from the approved insurance providers,
then Federal regulations required APHIS to reduce its program payments by the total amount of
Florida Fruit Tree Pilot crop insurance indemnity payments that the grower had received. 11
Moreover, while citrus growers who either leased or owned their land could insure their citrus
trees with RMA, only growers who owned their land were allowed to claim benefits from
APHIS’ Citrus Canker Tree Replacement and Lost Production Programs. This provision was
intended to ensure that growers would not be doubly compensated for the same destroyed trees.

In January 2006, USDA declared that the citrus canker eradication program was no longer
feasible because the 2004 and 2005 hurricanes had spread citrus canker so extensively. 12 As a
result, Florida then stopped destroying citrus trees within 1,900 feet of an infected tree, and
APHIS discontinued its two programs for compensating growers for losses related to citrus
canker. In CY 2008, RMA no longer considered citrus canker an insurable cause of loss, which
meant that growers could not receive an indemnity for trees lost due to the disease.

Objectives
The objectives of the audit were to evaluate (1) the adequacy of coordination and collaboration
between APHIS and RMA with regard to citrus canker-related payments, and (2) the adequacy
of the agencies’ management controls to ensure that payments to citrus growers for comparable
losses from citrus canker were accurately calculated to avoid duplicate and overlapping
payments.

As our fieldwork proceeded, we became aware of potential problems concerning whether APHIS
reported its payments to the Internal Revenue Service (IRS). Accordingly, we expanded our
scope to evaluate this concern.




11
     Title 7 Code of Federal Regulations (CFR) 301.75-16(b)(2)(i), dated January 1, 2004.
12
     January 10, 2006, USDA letter to the Florida Agriculture Commissioner.


Audit Report 50099-46-At                                                                    5
Section 1: IRS Reporting of Citrus Canker Tree Replacement
Payments

Finding 1: APHIS Did Not Report Citrus Canker Tree Replacement
Payments to IRS
APHIS did not report $290.9 million in Citrus Canker Tree Replacement Program payments to
IRS from fiscal years (FY) 2001 through 2007. APHIS officials explained that, in FY 2000, the
agency had issued similar payments for hogs and that they had worked with IRS to determine
that those payments were not reportable. Based on their experience, APHIS officials concluded
that citrus canker tree replacement payments were similar and that they, too, should not be
reported. Therefore, APHIS recorded citrus canker tree replacement payments for USDA’s
internal accounting purposes using a code that flagged these payments as non-reportable.
However, in consultation with IRS, the Office of Inspector General (OIG) has determined that
citrus canker tree replacement payments were compensation for a capital asset,13 and that they
therefore should have been reported to IRS for tax purposes. As a result, the Government has no
assurance that growers properly reported to IRS tree replacement payments which may be
subject to taxes.

All Federal agencies are required to report payments of $600 or more made in any taxable year
to IRS.14 Departmental regulations further require that USDA agencies must determine which
payments should be reported to IRS and report them accordingly.15

In order to report payments to IRS, USDA uses a Departmentwide financial reporting system
that interacts with the various accounting systems used by the Department’s agencies. When the
agencies issue payments, they must select the correct budget object classification code,
indicating the type of payment and whether the payment needs to be reported to IRS. Certain
codes have pre-assigned flags that the Department uses to determine whether the Miscellaneous
Income Form 1099-MISC will be issued to report payments over $600 for a particular taxpayer
identification number.

When APHIS began issuing citrus canker payments for tree replacement and lost production,
officials decided that, since citrus canker tree replacement payments were similar to the hog
payments APHIS issued in FY 2000, they did not have to be reported for tax purposes. They
therefore chose budget code 4221, “regular indemnity,” which had a pre-assigned flag setting to
not generate a Form 1099. Accordingly, none of these payments were reported to IRS.

APHIS officials were acting on incomplete information, as Federal crop insurance indemnity
payments made to growers are reported to IRS. We verified with the approved insurance



13
   See footnote 5 on page 2.
14
   Chapter 61, subchapter A, part III, subpart B of the IRC, 26 United States Code, section 6041-6051N.
15
   Departmental Regulation 2130-004, dated November 27, 2006, supersedes Departmental Regulation 2130-4,
dated March 4, 1997.


Audit Report 50099-46-At                                                                               6
providers that, when growers receive an indemnity, the approved insurance providers report
these indemnity payments to IRS annually.16

For clarification the OIG contacted the Director of the Accounting Policy and Consolidated
Reporting Division of the Office of the Chief Financial Officer (OCFO) to further discuss the
budget code and to confirm whether the citrus canker tree replacement payments should have
been reported to IRS. OCFO referred the question to APHIS. APHIS officials responded that
they had researched standard operating procedures, Federal regulations, and IRS procedures, but
did not find any specific reference to citrus canker tree replacement payments and Form 1099
reporting.

OIG contacted IRS to determine whether APHIS should have reported the payments for tree
replacement payments. IRS responded that, “[t]he money was for replacing the trees (a capital
asset). These citrus trees are subject to capitalization rules and have a tax basis. The treatment is
similar to a casualty loss. This would then appear to give the owner/taxpayer ordinary income
through the capital gain or loss.” According to this response, APHIS should have reported the
payments to IRS and IRS could then determine if the payments were taxable, whether the grower
used the money to replace trees or not.

To verify whether the growers had used the money to replace trees or not, which was the
intended purpose of the compensation, we conducted onsite visits to a number of growers’ sites.
Our onsite reviews of four growers17 who received compensation as a result of the 2005
hurricanes in Florida found that the growers had sold the land or otherwise not replaced citrus
trees more than 2 years after receiving their payments and 3 years18 after the trees were
destroyed.

     ·   Grower A had not replaced any citrus trees on 2,887 acres, but instead sold the acres for
         $20.2 million19 even though he had received $8.82 million in citrus canker tree
         replacement payments for the same acreage.
     ·   Grower B had not replanted the 4,550 acres where citrus trees were destroyed, even
         though he had received $14.25 million in citrus canker tree replacement payments.
     ·   Grower C had not replanted the 3,311 acres where citrus trees were destroyed, even
         though he had received $8.83 million in citrus canker tree replacement payments.
     ·   Grower D had not replanted more than 270 acres where citrus trees were destroyed after
         receiving $730,000 in citrus canker tree replacement payments.


16
   Under the Standard Reinsurance Agreement with the Federal Crop Insurance Corporation, the approved insurance
providers adjust claims in the Federal crop insurance program and pay indemnities. Therefore, they are required to
report any indemnity payment to IRS.
17
   Growers were judgmentally selected and reviewed because they were also being reviewed in the USDA OIG
audit; Citrus Indemnity Payments Resulting from 2005 Florida Hurricanes (05099-29-At), and received the highest
citrus indemnity payments during the 2006 crop year.
18
   Title 7 CFR 301.75-4, dated January 1, 2004, states that any State or portion of a State where an infestation is
detected will be designated as a quarantined area and will remain so until the area has been without infestation for
2 years. Growers received citrus canker tree replacement payments in 2005 and 2006 for associated trees ordered to
be destroyed between November 21, 2004, and November 20, 2005.
19
   Grower A’s sales contract stated the price per acre at $7,000. Thus 2,887 acres x $7,000 = $20.2 million.


Audit Report 50099-46-At                                                                                      7
On August 30, 2010, OIG requested that APHIS provide its official position concerning why it did
not report tree replacement payments to IRS. APHIS officials explained that they determined that
they had not reported tree replacement payments because, in FY 2000, they had consulted with IRS
regarding other payments (in this case, relating to hogs), and were advised that the compensation was
non-taxable. APHIS therefore concluded that the tree replacement payments were similar. APHIS
officials now acknowledge that the citrus tree replacement payments may be subject to reporting
for tax purposes, but stated that APHIS employees did not have the information to determine if a
payment would be income, gain, or profit to a producer.

According to IRS, citrus trees (unlike hogs) are a capital asset, and therefore should be reported
for tax purposes. OIG notes that APHIS also considered citrus trees a capital asset, because they
are a fixed asset of the land.20 APHIS used this point as a determining factor in deciding that
owners of the land would be eligible to receive tree replacement and lost production payments,
but citrus growers who only leased and worked the groves, but did not own the trees, would not
be eligible to apply for such payments. Given APHIS’ understanding of these trees as a capital
asset, OIG believes that APHIS should have sought clarification from IRS regarding the tax
status of these payments.

Recommendation 1
APHIS should notify and work with the Department to determine what actions should be taken
to resolve citrus canker tree replacement payments that were not reported to IRS.

Agency Response
In its March 7, 2011, response, APHIS stated that it will work with the Department to determine
what actions should be taken to resolve this issue. APHIS expects the actions to be identified and
taken by July 29, 2011.

OIG Position
We accept APHIS’ management decision for Recommendation 1.




20
   Office of the General Counsel’s review of Florida law supported APHIS’ decision that trees were a capital or
fixed asset. APHIS’ decision to pay citrus tree owners was upheld in court on February 13, 2006, (Alcides Acosta
and Acosta Farms, Inc., vs. USDA).


Audit Report 50099-46-At                                                                                    8
Section 2: Controls Over Citrus Canker Lost Production Program

Finding 2: USDA Agencies Did Not Coordinate to Ensure Correct Payments
for Citrus Canker-Related Losses in CY 2005

From November 21, 2004, to November 20, 2005,21 RMA-approved insurance providers paid
$100.8 million in indemnities to growers under the Florida Fruit Tree Pilot Crop Insurance
Program even as APHIS was issuing payments under the Citrus Canker Lost Production
Program. We found, however, that APHIS lacked an adequate control to coordinate with RMA
to ensure the accuracy of RMA citrus canker-tree payments to citrus growers and relied on
grower-provided information to pay claims for lost production. APHIS officials stated that they
did not coordinate more closely with RMA because they did not believe growers would
knowingly misrepresent information. We found, however, that growers did not always provide
correct information when they applied for the lost production program. Due to the agencies’
reliance on grower-provided information that was sometimes incorrect, APHIS overpaid
15 citrus growers $633,717 and underpaid 6 growers $486,959—for a total of $1.1 million in
erroneous payments.

Office of Management and Budget (OMB) Circular A-123 states that agencies are to establish
internal controls to ensure that funds, property, and other assets are safeguarded against waste,
loss, and unauthorized use or misappropriation. As agencies develop and execute strategies for
implementing or reengineering agency programs and operations, they should design management
structures that help ensure accountability for results.22

Under the Citrus Canker Lost Production Program, APHIS compensated eligible commercial
citrus groves for production income lost as a result of the removal of commercial citrus trees to
control citrus canker between October 2000 and January 2006.23 Under the Fruit Tree Pilot Crop
Insurance Program, RMA indemnified insured growers against certain causes of tree losses,
including citrus canker, beginning with CY 2000 and ending after CY 2007. Federal regulations
required APHIS to reduce its citrus canker lost production payments by the amount of any RMA
payments owners have received.24

Since these two programs effectively overlapped for a period of time and APHIS was required to
reduce its payments based on RMA indemnity payments made, APHIS should have developed
an internal control to obtain—directly from RMA—information on how much growers had
received from RMA’s program. We found, however, that APHIS implemented no such internal

21
   We drew our sample from the last complete RMA Florida Fruit Tree Pilot Crop Insurance Program crop year
during which APHIS’ Citrus Canker Lost Production Program was in operation.
22
   OMB Circular A-123, “Management's Responsibility for Internal Control,” December 21, 2004.
23
   The program began in October 2000 when 7 CFR 301.75-15 was issued and ended in January 2006 when USDA
ended its efforts to eradicate citrus canker.
24
   Title 7 CFR 301.75-16(b)(2)(i), dated January 1, 2004: “In cases where the owner of a commercial citrus grove
had obtained [Asiatic citrus canker] coverage for trees in his or her grove and received crop insurance payments
following the destruction of the insured trees, the [Citrus Canker Lost Production Program payment] will be reduced
by the total amount of the crop insurance payments received by the commercial citrus grove’s owner for the insured
trees.”


Audit Report 50099-46-At                                                                                     9
control. When growers applied for the Citrus Canker Loss Production Program, the form asked
them to list how much they had received from the approved insurance providers for the Florida
Fruit Tree Pilot Crop Insurance Program. APHIS had no system for verifying the accuracy of
the amounts that growers provided. Although we found no evidence that growers deliberately
provided incorrect information, we found that 21 of 54 growers provided APHIS figures that
were inaccurate, generally because the citrus growers misunderstood certain details about the
indemnities they had received. As a result of its reliance on grower-provided figures, APHIS
overpaid 15 citrus growers in our sample by $633,717 and underpaid 6 growers $486,959, for a
total of more than $1.1 million in erroneous payments.

When we asked an APHIS official why APHIS had not obtained information from RMA to
verify the accuracy of the indemnity payments citrus growers received, the official stated that
APHIS believed that the Federal status of the program would be sufficient to deter growers from
purposely providing inaccurate information. However, by relying on a self-certification
application, APHIS officials did not consider the possibility that citrus growers might
inadvertently provide inaccurate information.

Of the 21 growers to whom APHIS made erroneous payments we found that 11 citrus growers
reported the amounts on the crop insurance checks they received instead of the actual indemnity
amounts determined by their approved insurance provider.25 Growers might make this kind of
mistake, as they were not necessarily aware that their checks reflected the indemnity amounts
minus the premiums owed for the insurance policies. Although APHIS did not require citrus
growers to provide any documentation to support their self-certification of their indemnity
amounts, a number of citrus growers voluntarily provided copies of their insurance checks.
However, neither APHIS nor these 11 growers correctly understood the relationship between the
check amount and the indemnity amount. We concluded that the errors we found were caused
by APHIS not having a control for coordinating more directly with RMA, as well as by the
growers’ misunderstanding of how the amount on their checks was determined.

Of the 21 growers and the $1.1 million in incorrect citrus canker lost production payments we
identified, $216,079 came from a unique situation where the grower responsible for a grove of
trees was not the same as the owner of that grove. With APHIS’ Citrus Canker Lost Production
Program, only owners of the grove were eligible for payments, whereas with RMA’s Florida
Fruit Tree Pilot Crop Insurance Program, growers were eligible for payments. In this particular
case, the grower purchased crop insurance for citrus trees on land leased from the owners. The
grower received crop insurance payments from RMA, but was not entitled to citrus canker tree
replacement or lost production payments from APHIS. The owners submitted applications for
APHIS citrus canker lost production payments on this grove, but did not report to APHIS the
$216,079 in RMA payments that the grower had received for the same trees.26 Since the owner


25
  Errors on claims for the other 10 growers derived from other assorted human errors, such as clerical errors.
26
  When we asked APHIS officials about what they had done to mitigate this sort of problem, they stated that they
did not face a situation where the grower responsible for a grove of trees was not the same as the owner of that
grove. We encountered two situations where the grower responsible for the grove was not the same as the owner of
the grove, but in the second situation APHIS reduced the amount of crop insurance the grower received from the
owner’s lost production payment.


Audit Report 50099-46-At                                                                                 10
did not report this sum and APHIS did not develop a control for coordinating with RMA, the
owner was overpaid by $216,079 (see exhibit B).

We concluded that if APHIS had coordinated with RMA, it would have been able to mitigate
these errors.

Recommendation 2
For the Citrus Canker Lost Production Program, APHIS should recover the $633,717 that it
overpaid to growers.

Agency Response
In its March 7, 2011, response, APHIS stated:

       When considering the funds involved in collecting the overpayments, APHIS believes these
       funds could be put to better use. Costs would be incurred to review the documents provided
       by OIG; locate the growers who have been overpaid; communicate with the growers; issue
       and monitor the bills; perform debt management; potentially write off the debt; and
       coordinate action with the Department of Justice. In addition to the costs the agency and
       others will incur, these trees were destroyed over five years ago. APHIS believes funds are
       better used to develop stronger controls to ensure this type of overpayment does not recur.

OIG Position
We cannot accept APHIS’ management decision for this recommendation. For monetary findings,
APHIS must take certain steps, as prescribed in Departmental Regulation (DR) 1720-1, Audit
Follow-up and Management Decision, in order for OIG to accept management decision and for the
Office of the Chief Financial Officer to accept final action. Before APHIS can make a decision
whether or not to collect the cited overpayments, APHIS will have to determine whether it agrees
with the overpayments. If APHIS agrees with the overpayments, APHIS needs to provide OIG
with evidence that an accounts receivable has been established in the agency’s accounting
records and a copy of the demand letter issued to the growers who were overpaid, as well as a
timeframe for collection. If APHIS disagrees with the overpayments, then it must provide its
analyses and support showing that there were no overpayments.

Recommendation 3
APHIS should make appropriate payments to those growers it underpaid $486,959.

Agency Response
In its March 7, 2011, response, APHIS stated that it will review the grower information provided
by OIG and issue payments to growers as appropriate. APHIS expects to issue payments to growers
as appropriate by August 31, 2011.




Audit Report 50099-46-At                                                                     11
OIG Position
We accept APHIS’ management decision for Recommendation 3.

Recommendation 4
APHIS should develop internal controls to consult with other Federal agencies directly to obtain
any information needed before any payments are made for future programs.

Agency Response
In its March 7, 2011, response, APHIS stated that it will develop internal controls to consult with
other Federal agencies directly to obtain any information needed before any program compensation
payments are made. APHIS expects to develop internal controls by September 30, 2011.

OIG Position
We accept APHIS’ management decision for Recommendation 4.




Audit Report 50099-46-At                                                                      12
Scope and Methodology
Our review focused on APHIS’ FYs 2005 and 2006 management operations of citrus canker
eradication programs, including both the Citrus Canker Lost Production Program and the Citrus
Canker Tree Replacement Program. We also reviewed RMA’s Florida Fruit Tree Pilot Crop
Insurance Program for CY 2005.27

Our fieldwork was conducted at the RMA and APHIS national offices, located in
Washington, D.C., and Riverdale, Maryland; USDA’s APHIS citrus canker eradication project
office located in Plantation, Florida; and five locations for selected growers. The audit work
covered RMA’s indemnity payments for CY 2005, i.e., November 21, 2004, through
November 20, 2005, and APHIS’ Citrus Canker Tree Replacement and Lost Production
Programs payments issued during this same period. For purposes of determining whether tree
replacement program payments were reported to IRS, we expanded our scope to include tree
replacement payments made from FY 2001 through 2007. All fieldwork was conducted between
February 2009 and September 2010.

As part of this review, we judgmentally selected 54 growers for the purpose of comparing crop
insurance indemnity payments received based on RMA’s Data Acceptance System data with the
crop insurance indemnity payments reported to APHIS by growers. These growers were selected
because they received at least $100,000 from RMA’s CY 2005 Florida Fruit Tree Pilot Crop
Insurance Program and also participated in RMA’s CY 2006 Florida Citrus Fruit Crop Insurance
Program.

To accomplish the audit objectives, we performed the following procedures:

     ·   Reviewed public laws, RMA and APHIS regulations, policies, procedures, and other
         controls governing the administration of all three programs.
     ·   Reviewed external and internal reports that resulted from reviews, studies, and
         evaluations relative to all three programs, including: RMA reports evaluating the Florida
         Fruit Tree Pilot Crop Insurance Program; APHIS reports reviewing the Florida Citrus
         Canker Eradication Program and cooperative agreements with the Florida Department of
         Agriculture and Consumer Services; Federal Manager’s Financial Integrity Report for
         FY 2005; and Government Accountability Office reports on all of USDA or more
         specific crop insurance issues.
     ·   Analyzed records, reports, correspondence, and other documents pertinent to the three
         programs, including APHIS’ third and fourth round tree replacement and lost production
         payment records, applications, claim files, and citrus tree and acreage counts; RMA’s
         CY 2005 citrus canker tree loss data, claim files, growers property tax records in Saint
         Lucie, Hendry, Highlands, Indian River, and Martin counties; OMB Program Assessment
         Rating Tool reports; and USDA-OIG hotline records.


27
   OIG’s audit covered the Florida Fruit Tree Pilot Crop Insurance Program CY 2005 (November 21, 2004, to
November 20, 2005); thus, we reviewed APHIS citrus canker tree replacement and lost production payments made
in FYs 2005 and 2006.


Audit Report 50099-46-At                                                                              13
   ·   Compared lost production and tree replacement payments growers received from APHIS
       with citrus canker tree insurance payments growers received from RMA-approved
       insurance providers and identified those growers that received payments from both
       agencies.
   ·   Interviewed RMA and APHIS national office officials, and others, including OCFO
       officials, to identify controls for administering and reporting on all three programs.
   ·   Interviewed growers and reviewed records of citrus grove operations to validate whether
       program payments were properly adjusted based on provisions for APHIS’ Citrus Canker
       Lost Production Program and the Citrus Canker Tree Replacement Program and RMA’s
       Florida Fruit Tree Pilot Crop Insurance Program.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit Report 50099-46-At                                                                  14
Abbreviations

APHIS        Animal and Plant Health Inspection Service
CFR          Code of Federal Regulations
CY           Crop Year
FY           Fiscal Year
IRC          Internal Revenue Code
IRS          Internal Revenue Service
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
RMA          Risk Management Agency
USDA         Department of Agriculture




Audit Report 50099-46-At                                  15
Exhibit A: Summary of Monetary Results


Finding    Recommendation
                                       Description               Amount          Category
  No.           No.
                                                                             Other Accounting
                               APHIS errors due to incorrect
   1               1                                            $290,880,924 Classification
                               reporting
                                                                             Errors
                                                                            Question Costs –
                               APHIS errors due to lack of
   2               2                                                633,717 Recovery
                               coordination with RMA
                                                                            Recommended
                               APHIS errors due to lack of                    Other -
   2               3                                                486,959
                               coordination with RMA                          Underpayments
TOTAL                                                          $292,001,600


The table above is titled Exhibit A – Summary of Monetary Results. The table contains columns
to identify the finding number, recommendation number, description of error, program dollar
amount impacted, and OIG management tracking classification associated with the monetary
results from the report’s findings.




Audit Report 50099-46-At                                                                16
Exhibit B: APHIS Citrus Canker Lost Production Payment Errors
(by Grower)

      Grower       Type of Errors       No. of Errors     Overpayments        Underpayments
         1              a, b                  2                                    $84,773.00
         2              a, b                  2                $39,402.00
         3              a, f                  2                 60,573.56
         4               a                    1                  4,599.00
         5               a                    1                  1,319.00
         6               a                    1                  6,045.00
         7               a                    1                    719.00
         8               a                    1                  8,982.00
         9               a                    1                 13,628.00
        10               a                    1                    284.00
        11               a                    1                  1,100.00
        12               b                    1                  8,043.00
        13               b                    1                                          577.23
        14               b                    1                252,852.55
        15               b                    1                                     147,620.00
        16               c                    1                216,078.67
        17               d                    1                                       66,794.58
        18               d                    1                      91.54
        19               e                    1                                       1,385.62
        20               g                    1                                     185,809.00
        21               h                    1                 20,000.00
     TOTAL                               24 Errors            $633,717.32          $486,959.43
   Total Erroneous Payments (Overpayments + Underpayments)                       $1,120,676.75

The table above is titled Exhibit B – APHIS Citrus Canker Lost Production Payment Errors (by
Grower). The table contains columns that list 21 citrus growers identified by numbers 1 through
21, identification of the type of error for each of the 21 citrus growers and coded alphabetically,
number of errors per citrus grower, amount of overpayment or underpayment per citrus grower,
as well as the total erroneous payments of $1,120,676.75.




Audit Report 50099-46-At                                                                      17
Exhibit B: (Continued)

Error types explained:
   a. Resulted from owners reporting the amount of the indemnity check instead of the total
      indemnity payment.
   b. Resulted because APHIS did not match the amount of crop insurance payments received
      by the grower to the trees identified in the immediate final order.
   c. Resulted from a situation in which owners did not report indemnity payment to APHIS.
   d. Resulted because amount reported by the owner did not match the crop insurance
      payment.
   e. Resulted from the owner incorrectly rounding the amount received from crop insurance
      payments by half a cent per tree.
   f. Resulted because owner incorrectly estimated the amount of crop insurance payments
      and did not report the final amount received.
   g. Resulted from owner not reporting a crop insurance indemnity change made after the
      submission of the claim to APHIS.
   h. Resulted from APHIS making a clerical error. An owner reported crop insurance
      payments of $321,016, but APHIS mistakenly recorded the amount as $301,016. As a
      result, APHIS overpaid the owner by $20,000.




Audit Report 50099-46-At                                                              18
Agency’s Response




                           USDA’S



     Animal and Plant Health Inspection Service



             RESPONSE TO AUDIT REPORT




Audit Report 50099-46-At                      19
                         MEMORANDUM
United States
Department of
Agriculture              TO:                Gil H. Harden
Animal and Plant
                                            Assistant Inspector General
Health Inspection                             for Audit
Service

Washington, DC           FROM:               Cindy J. Smith          /S/    3/7/2011
20250
                                             Administrator

                         SUBJECT: APHIS Response and Request for Management
                                  Decisions on OIG Report, “USDA Payments for
                                  2005 Citrus Canker Losses” (50099-46-AT)

                         Thank you for the opportunity for the Animal and Plant Health Inspection Service
                         (APHIS) to comment on this report. We have addressed each Recommendation
                         with our planned corrective actions and the timeframes for implementation of these
                         actions.

                         Recommendation 1: APHIS should notify and work with the Department to
                         determine what actions should be taken to resolve citrus canker tree
                         replacements that were not reported to the IRS.

                         APHIS Response: APHIS will work with the Department to determine what
                         actions should be taken to resolve this issue. APHIS expects the actions will be
                         identified and taken by July 29, 2011.

                         Recommendation 2: For the Citrus Canker Lost Production Program, APHIS
                         should recover the $633,717 that it overpaid to growers.

                         APHIS Response: When considering the funds involved in collecting the
                         overpayments, APHIS believes these funds could be put to better use. Costs would
                         be incurred to review the documents provided by OIG; locate the growers who have
                         been overpaid; communicate with the growers; issue and monitor the bills; perform
                         debt management; potentially write off the debt; and coordinate action with the
                         Department of Justice. In addition to the costs the agency and others will incur,
                         these trees were destroyed over five years ago. APHIS believes funds are better
                         used to develop stronger controls to ensure this type of overpayment does not recur.

                         Recommendation 3: APHIS should make appropriate payments to those
                         growers it underpaid $486,959.

                         APHIS Response: APHIS will review the grower information provided by OIG
                         and issue payments to growers as appropriate by August 31, 2011.


                    Safeguarding American Agriculture
                                                                                       Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs     (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                         1-800-877-8339
Recommendation 4: APHIS should develop internal controls to consult with
other Federal agencies directly to obtain any information needed before any
payments are made for future programs.

APHIS Response: APHIS will develop internal controls to consult with other
Federal agencies directly to obtain any information needed before any program
compensation payments are made. APHIS will develop internal controls by
September 30, 2011.
